<html>
<title> - THE IMPACT OF THE WORLD BANK AND MULTILATERAL DEVELOPMENT BANKS ON U.S. JOB CREATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      THE IMPACT OF THE WORLD BANK 
                      AND MULTILATERAL DEVELOPMENT 
                       BANKS ON U.S. JOB CREATION 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                         INTERNATIONAL MONETARY

                            POLICY AND TRADE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2011

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-52

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-947 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                   SPENCER BACHUS, Alabama, Chairman

JEB HENSARLING, Texas, Vice          BARNEY FRANK, Massachusetts, 
    Chairman                             Ranking Member
PETER T. KING, New York              MAXINE WATERS, California
EDWARD R. ROYCE, California          CAROLYN B. MALONEY, New York
FRANK D. LUCAS, Oklahoma             LUIS V. GUTIERREZ, Illinois
RON PAUL, Texas                      NYDIA M. VELAZQUEZ, New York
DONALD A. MANZULLO, Illinois         MELVIN L. WATT, North Carolina
WALTER B. JONES, North Carolina      GARY L. ACKERMAN, New York
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
GARY G. MILLER, California           GREGORY W. MEEKS, New York
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
SCOTT GARRETT, New Jersey            RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              WM. LACY CLAY, Missouri
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            JOE BACA, California
MICHELE BACHMANN, Minnesota          STEPHEN F. LYNCH, Massachusetts
THADDEUS G. McCOTTER, Michigan       BRAD MILLER, North Carolina
KEVIN McCARTHY, California           DAVID SCOTT, Georgia
STEVAN PEARCE, New Mexico            AL GREEN, Texas
BILL POSEY, Florida                  EMANUEL CLEAVER, Missouri
MICHAEL G. FITZPATRICK,              GWEN MOORE, Wisconsin
    Pennsylvania                     KEITH ELLISON, Minnesota
LYNN A. WESTMORELAND, Georgia        ED PERLMUTTER, Colorado
BLAINE LUETKEMEYER, Missouri         JOE DONNELLY, Indiana
BILL HUIZENGA, Michigan              ANDRE CARSON, Indiana
SEAN P. DUFFY, Wisconsin             JAMES A. HIMES, Connecticut
NAN A. S. HAYWORTH, New York         GARY C. PETERS, Michigan
JAMES B. RENACCI, Ohio               JOHN C. CARNEY, Jr., Delaware
ROBERT HURT, Virginia
ROBERT J. DOLD, Illinois
DAVID SCHWEIKERT, Arizona
MICHAEL G. GRIMM, New York
FRANCISCO ``QUICO'' CANSECO, Texas
STEVE STIVERS, Ohio
STEPHEN LEE FINCHER, Tennessee

                   Larry C. Lavender, Chief of Staff
        Subcommittee on International Monetary Policy and Trade

                  GARY G. MILLER, California, Chairman

ROBERT J. DOLD, Illinois, Vice       CAROLYN McCARTHY, New York, 
    Chairman                             Ranking Member
RON PAUL, Texas                      GWEN MOORE, Wisconsin
DONALD A. MANZULLO, Illinois         ANDRE CARSON, Indiana
JOHN CAMPBELL, California            DAVID SCOTT, Georgia
MICHELE BACHMANN, Minnesota          ED PERLMUTTER, Colorado
THADDEUS G. McCOTTER, Michigan       JOE DONNELLY, Indiana
BILL HUIZENGA, Michigan































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 27, 2011................................................     1
Appendix:
    July 27, 2011................................................    37

                               WITNESSES
                        Wednesday, July 27, 2011

Hardy, John, President, The Coalition for Employment Through 
  Exports (CEE)..................................................    14
Harmon, James A., Chairman, Caravel Management LLC, and former 
  President, Export-Import Bank of the United States.............    10
Kolbe, Hon. James T., former Member of Congress, and Senior 
  Transatlantic Fellow, The German Marshall Fund of the United 
  States.........................................................     6
Leo, Benjamin, Research Fellow, Center for Global Development, 
  and former Treasury Department and National Security Council 
  official.......................................................    12
Mosbacher, Robert, Jr., Chairman, Mosbacher Energy Company, and 
  past President and CEO, Overseas Private Investment Corporation     8

                                APPENDIX

Prepared statements:
    Hardy, John..................................................    38
    Harmon, James A..............................................    42
    Kolbe, Hon. James T..........................................    46
    Leo, Benjamin................................................    50
    Mosbacher, Robert, Jr........................................    55

              Additional Material Submitted for the Record

Miller, Hon. Gary G.:
    Letter in support of the MDBs from the Business Roundtable, 
      et al......................................................    58
    Written statement of Philips Electronics North America.......    59


                      THE IMPACT OF THE WORLD BANK
                      AND MULTILATERAL DEVELOPMENT
                       BANKS ON U.S. JOB CREATION

                              ----------                              


                        Wednesday, July 27, 2011

             U.S. House of Representatives,
                      Subcommittee on International
                         Monetary Policy and Trade,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
room 2128, Rayburn House Office Building, Hon. Gary G. Miller 
[chairman of the subcommittee] presiding.
    Members present: Representatives Miller of California, 
Dold, Manzullo, Campbell, Huizenga; McCarthy of New York, 
Moore, Carson, Scott, and Perlmutter.
    Also present: Representative Green.
    Chairman Miller of California. The hearing will come to 
order. Without objection, all members' opening statements will 
be made a part of the record. On the opening statements, we 
have agreed to a limit of 10 minutes for each side, as 
previously agreed to with the ranking member.
    Today's hearing is focused on the impact of the World Bank 
and the multilateral development banks on U.S. job creation. 
This is the second hearing in our subcommittee's consideration 
of authorization for the World Bank's regional multilateral 
development banks, or MDBs.
    The United States is a lead shareholder at the World Bank 
and at regional MDBs. The Administration has requested 
contributions to the capital at these institutions, and has 
argued that such contributions are important to retain our 
leadership and position.
    The hearing today will focus on how World Bank and MDBs 
assistance to middle-income and poor countries around the world 
contributes to the U.S. employment base. Through the 
development activities, MDBs help contribute to stability 
around the world, opening up markets for companies to engage.
    By ensuring the global environment is stable, American 
companies can thrive and contribute to robust economic growth. 
Half of all global growth is expected to be in the developing 
world, which is estimated to lead to over $3 trillion in 
infrastructure spending. With MDB support, the developing world 
can be a source of economic growth and opportunity for American 
businesses.
    MDBs also provide poor countries across Africa a nation 
alternative to China for development finance and natural 
resource development, allowing American companies access to 
these markets. Our subcommittee is interested in learning about 
how these MDBs help open markets and spur private sector-led 
economic growth and employment in the United States.
    We want to explore how the U.S. leadership position at 
these institutions provides benefit to U.S. job creation. We 
also want to hear about the potential consequences, if any, for 
its economic interest of a delay or reduction in paying what is 
committed to these institutions.
    Specifically, we would like the witnesses to discuss the 
impact MDBs have on the U.S. economy and U.S. job creation, the 
economic benefit to U.S. companies of U.S. membership in MDBs, 
how the MDBs help open markets and spur private sector-led 
economic growth and employment in the United States, and the 
consequence for global and U.S. economic interests of any 
reduction in the amount requested by the Administration for the 
MDBs or a delay in meeting the U.S. commitment to the MDBs.
    We cannot lose sight of the fact that these requests are 
coming at a time when our country must focus on getting our own 
massive debt under control. While the United States has a vital 
interest in continuing to assist emerging economies, improve 
economic, political and social reforms, we cannot overlook the 
costs.
    During these economically challenging times, Congress must 
continue to make the difficult choices necessary to reduce the 
debt and grow our economy. The American people are demanding 
that their government learn to live within its means and stop 
spending borrowed money.
    The fact is, we simply cannot continue to borrow 40 cents 
on the dollar, and pass on the debt to future generations to 
repay. We must prioritize Federal dollars to ensure essential 
needs are provided for, and do more with less just as American 
families and small businesses have had to do during these lean 
economic times.
    It is with these financial constraints at the forefront of 
our minds that this subcommittee will assess the 
Administration's request for funding. It is important for us to 
understand the benefit to the U.S. economy and job creation of 
continuing to assist emerging economies in implementing 
economic, political, and social reforms.
    Before we act, we want to understand clearly the 
consequences to U.S. economic interests from any delay or 
reduction in the amount requested by the Administration. Since 
accepting the gavel for this subcommittee, I have said that our 
agenda will focus on four things: job creation; global 
competitiveness; economic growth and stability; and protecting 
taxpayers.
    This is the lens under which we review the Administration's 
request for funding for MDBs. Our ultimate goal is to promote 
favorable conditions around the world for American companies in 
order to increase U.S. exports, and thereby create jobs in the 
United States.
    I now yield to the ranking member for 5 minutes.
    Mrs. McCarthy of New York. Thank you, Chairman Miller, for 
holding this hearing and examining the important role the World 
Bank and multilateral development banks play in the developing 
world, and why the United States' continued commitments to 
these institutions is so important for us.
    Today, we will examine the role these institutions play in 
the global economy as well as the U.S. economy. Emerging 
markets in developing countries provide economical growth 
opportunities for U.S. businesses and U.S. exports. Recently, 
during a speech before the U.S. Global Leadership Coalition in 
Washington, D.C., Secretary of State Clinton said, ``The growth 
of the developing world presents a major economic opportunity 
for America businesses today, and a thousand opportunities for 
tomorrow.''
    MDBs play a crucial role for developing countries, 
providing assistance to weak and fragile states to promote 
democracy. This helps advance our national security efforts and 
creates stable markets and fiscal prosperity. Empowering a 
country to move from poverty to a global middle class forces a 
desire and a need for American products, and provides an 
opportunity for U.S. businesses and U.S. job growth.
    For example, products we take for granted such as phones 
and computers are being rapidly adopted by the developing 
countries. The United States has played a leadership role in 
crafting a policy agenda to ensure our financial contributions 
will be leveraged by other donors and borrowers, and that 
investments may be made to institutions directly that support 
our priorities.
    If we do not maintain our leadership role, other global 
competitors such as China, who will not share our values, will 
undo the good reform work that has been adopted in these 
institutions. MDBs provide support in the areas of education, 
health, agricultural development, infrastructure development, 
and humanitarian relief.
    As well, the institutions work to strengthen principles of 
good governance, fight corruption, and encourage human rights 
standards. By fulfilling our commitments to the MDBs, we remain 
globally competitive and strive to build a safer and a better 
world.
    I recognize that we are faced with extremely difficult 
financial challenges in this country. As we work to address 
these challenges, we must remain committed to our economic 
recovery, and our participation in these institutions will 
allow us to do that. I would like to thank the witnesses for 
being here today, and I look forward to hearing your testimony.
    With that, I yield back.
    Chairman Miller of California. Vice Chairman Dold is 
recognized for 3 minutes.
    Mr. Dold. Thank you, Mr. Chairman. I want to thank you for 
calling this important hearing. And I certainly want to thank 
the witnesses for your time and your testimony here today.
    Since coming to Congress, my primary focus has been on 
improving the environment for job growth and economic 
expansion. And I hope we have broad bipartisan agreement that 
fully funding our commitments to the multilateral development 
banks will promote job growth and economic expansion, as well 
as also promoting our Nation's strategic security interests.
    I believe that President Obama, congressional Democrats and 
Republicans, military leaders, and business leaders all agree 
on these points. However, many Americans and some politicians 
might not appreciate the value that Americans receive from our 
MDB leadership. And there seems to be a misimpression about how 
much money we spend on foreign aid and on MDBs.
    According to a recent poll, Americans believe that the 
Federal Government spends approximately 25 percent of its 
budget on foreign aid. And then that same poll indicated that 
Americans would prefer if we only spent approximately 10 
percent. The good news is that we really only spend 
approximately 1 percent of the Federal budget on foreign aid, 
and only a small fraction of that would be to fully fund the 
MDB commitments.
    So the fact is, our MDB spending is far less than many 
Americans believe. And we cannot have any meaningful impact on 
our deficits and our national debt by failing to fully 
recapitalize these obligations. But in this economy and in this 
budget environment, every dollar counts, and Americans are 
entitled to ask what value we receive for these contributions.
    How effectively does our MDB leadership promote job growth 
and economic prosperity right here in the United States? And 
that is why this hearing is so important. Our military leaders 
have repeatedly told us that our MDB leadership makes our 
Nation safer and more secure.
    But our business leaders have also emphasized the vital 
importance of our MDB participation in promoting our own export 
markets, domestic economic prosperity, and domestic job growth. 
So I look forward to hearing our witnesses elaborate on how we 
can, with relatively little in terms of an investment, promote 
economic prosperity and job growth right here in the United 
States.
    And with that, I yield back, Mr. Chairman.
    Chairman Miller of California. Mr. Carson is recognized for 
5 minutes.
    Mr. Carson. Thank you, Mr. Chairman. Thank you. I want to 
first thank the Chair for holding this hearing, as clearly the 
World Bank and multilateral development banks are important 
aspects of combating poverty in developing countries, and our 
influential entities throughout the world.
    Strategies and tactics employed by the Bank and MDBs are of 
utmost importance, especially when implementing programs that 
could influence job creation in up-and-coming economies, as 
well as the United States. I am interested today in learning 
more about how the process by which the World Bank and MDBs are 
providing loans and grants for development projects in various 
countries, and how these processes can be improved upon, as 
this will only benefit U.S. markets.
    I understand that any project supported by an MDB must use 
an open procurement process devoid of any corruption. I would 
be interested in learning how exactly that is achieved, and how 
many more of these major infrastructure projects U.S. firms 
have won through the open bidding process.
    I believe there is much potential here for significant job 
growth. The United States is, indeed, the largest shareholder 
at each of the MDBs, and as a result of their large capital 
base, each of these banks holds a triple-A credit rating. As 
such, they are able to borrow at favorable rates in the private 
markets.
    However, as we grow near to the ever-looming August 2nd 
date Treasury has given us, how do you believe the potential 
for default will impact not only the credit rating of the MDBs, 
but also our very own credit rating, especially as credit 
rating agencies are threatening a U.S. credit downgrade?
    During the economic crisis, private institutions sharply 
reduced lending to these developing countries and MDBs 
increased their lending to these nations which, in turn, 
depleted their capital. I am interested in knowing how 
negotiations to increase MDBs' capital are proceeding, and what 
headway has been made.
    The United States continues to face a growing deficit. We 
want to ensure that the Administration's $3.3 billion funding 
request has adequate oversight and will be going to service 
things that actually fit. Finally, I do not agree that 
investments in MDBs and a strong World Bank help to advance the 
national security and economic interests of the United States.
    We want to ensure that the money procured is actually going 
to the promotion of national security initiatives, preventing 
and mitigating financial instability as well as creating 
markets for varying forms of viable employment. Again, I am 
pleased the chairman has hosted this and I look forward to 
hearing your testimony.
    Thank you.
    Chairman Miller of California. Thank you. I would like to 
welcome our panel of witnesses today, and introduce them to the 
public.
    The Honorable James Kolbe--it is good to have you back here 
again--was a Member of Congress for 22 years, and served as 
chairman of the House Foreign Operations Subcommittee on 
Appropriations for 6 years. He is currently senior 
transatlantic fellow with the German Marshall Fund of the 
United States. He advises on trade matters and the 
effectiveness of U.S. assistance to foreign countries. It is 
good to have you back.
    Mr. Robert Mosbacher, Jr., is chairman of Mosbacher Energy 
Company and past president and CEO of the Overseas Private 
Investment Corporation, OPIC.
    Mr. James A. Harmon is chairman of Caravel Management, and 
chairman of the board of the World Resource Institute, WRI. Mr. 
Harmon is past president and CEO of the Export-Import Bank of 
the United States. It is good to have you here.
    Mr. Benjamin Leo is a research fellow at the Center for 
Global Development. Mr. Leo has extensive experience in these 
issues through service to the White House, in the private 
sector, and at the Treasury Department. Prior to joining the 
Center, Mr. Leo worked at the White House National Security 
Council as the Director of African Affairs. Mr. Leo has also 
held a number of roles at the U.S. Treasury Department, 
focusing on development finance in Africa.
    And finally, Mr. John Hardy is president of the Coalition 
for Employment through Exports, CEE. Mr. Hardy has spent his 
career both in the government and the private sector in the 
export, promotion, and project and trade financing sector. Mr. 
Hardy served as Deputy Director, then acting Director, of the 
Trade and Development Agency, before managing the private 
sector investment fund at the Agency of International 
Development.
    Without objection, your written statements will be made a 
part of the record, and each of you will be recognized for 5 
minutes.
    Mr. Kolbe, you are recognized.

  STATEMENT OF THE HONORABLE JAMES T. KOLBE, FORMER MEMBER OF 
CONGRESS, AND SENIOR TRANSATLANTIC FELLOW, THE GERMAN MARSHALL 
                   FUND OF THE UNITED STATES

    Mr. Kolbe. Thank you, Chairman Miller, Ranking Member 
McCarthy, and members of the subcommittee. It is a great 
opportunity and a pleasure to be back here before this 
subcommittee and this committee in the House of 
Representatives.
    As you already noted, Mr. Chairman, I did serve 22 years in 
the House. And 6 of those years were as chairman of the House 
Foreign Operations Subcommittee on Appropriations, the one that 
was responsible for providing the funds for the multilateral 
development banks, or MDBs.
    During that time, I think I gained a pretty good 
understanding and level of respect for the work these 
institutions accomplish in some of the world's poorest nations. 
The MDBs play a role, and fill a gap in development 
assistance--and specifically in economic development--that I 
think is unparalleled.
    They provide opportunities for developing nations to build 
economic infrastructure and capacity, create private sector 
growth in supply chains, and reform custom regulations and 
barriers for economic growth, all of which raise the standard 
of living in these nations and create new markets and consumers 
for U.S. companies.
    Ninety-five percent of the world's consumers, with 75 
percent of the world's purchasing power, live outside of the 
United States. The combination of opening markets through trade 
agreements, and building capacity such as ports and roads, 
bridges, financial institutions, and trade finance provide 
opportunities for these developing nations to access the global 
market, and opportunities for developed nations to access new 
markets and consumers in the developing world.
    As a result, U.S. exports to, and U.S. foreign direct 
investment in, these nations increase when there is a capacity 
for us to expand into these markets. Bob Zoellick, president of 
the World Bank, recently said, ``Aid for trade--or trade 
capacity building as we sometimes call it--is a practical 
example of aid as self-interest, not charity.''
    I could not agree more with that statement. There are 
humanitarian and moral reasons to invest in development 
assistance, but it is important--maybe even crucial--for us to 
recognize the economic reasons, as well. Investing in the 
multilateral development banks is a step in that direction.
    Brazil, India, Turkey, Colombia, Vietnam, and Indonesia are 
just several examples of countries that have significantly 
benefited from MDBs investments. And, in turn, so has the 
United States and our taxpayers and our consumers. U.S. exports 
to India have nearly quadrupled. Exports to Brazil have more 
than doubled in the past decade.
    Both of these countries were substantial recipients of 
World Bank and regional development bank investments not long 
ago. The United States has increased exports by more than 200 
percent to some of these nations, with the help of the work 
that has been done by the MDBs.
    In 2008 and 2009, the MDBs played an important role in the 
global economic recovery. With a sharp decline in capital flows 
and trade finance to emerging developing nations, MDBs 
increased their commitments to help stabilize these economies 
and, in essence, stabilized these countries at a time of global 
economic instability.
    They were able to fill a gap while the United States and 
other developed nations focused on stabilizing the leading 
financial institutions. The World Bank continues to support 
trade flows with their global trade finance program and global 
trade liquidity program.
    Because of their multilateral structure, the MDBs have the 
means to leverage U.S. dollars wisely for effective development 
assistance. According to the U.S. Treasury, for every dollar 
the United States contributes, the MDBs leverage $25 of 
multilateral development aid. Specifically, the U.S. 
contribution of $420 million to the World Bank has supported 
$325 billion of investments since 1988.
    It is hard to imagine another example of such powerful 
leveraging with a contribution of this size. The World Bank's 
reach is vast. Its International Development Association, or 
IDA, for example, is one of the largest sources of assistance 
to the world's poorest countries, impacting 2.5 billion people.
    The ability of these institutions to leverage funds at a 
large scale provides the United States with a greater bang for 
its buck. At a time when fiscal constraints are at a peak, 
leveraging investments and cooperating with multilateral 
institutions and our allies is as important as ever.
    As you mentioned, I serve as the Senior Transatlantic 
Fellow at the German Marshall Fund of the United States, an 
institution that stands as a permanent memorial to the Marshall 
Plan. The goal is to decrease duplication of foreign assistance 
programs, and provide tools to effectively work together on the 
ground.
    Cooperation with trusted allies allows the United States to 
maximize development assistance with limited resources. The 
same is true for the MDBs, which were created as a means for 
nations to cooperate and to partner on development and economic 
priorities. And I would add the same is true for partnering 
with the private sector on development assistance, and you are 
going to hear more about that today.
    Countries like China are ready to fill the gaps that the 
United States, Europe, and other multilateral institutions 
leave open. This is occurring in both developed and developing 
countries. While the MDBs create opportunities for U.S. trade 
and investment, the Chinese provide opportunities for Chinese 
trade and investment.
    As China's economic influence grows, so will their overall 
global influence. Let me conclude, Mr. Chairman, by saying that 
I recognize the very tough budget constraints Congress faces at 
a time of high unemployment, slow economic growth, and the 
burgeoning debt.
    And I do not think that all MDBs are the same. They are not 
all equal. It is the responsibility of this committee to look 
at them very closely and see which ones have been the most 
successful in leveraging those dollars, which ones have been 
the most successful in helping lift these countries out of 
poverty and into economic growth.
    So, I think that the money is really not about development 
assistance. It is an investment, and I think it is a successful 
investment. It is aid as self-interest, not charity. I thank 
you for the opportunity to testify before you today, and I look 
forward to questions.
    [The prepared statement of Mr. Kolbe can be found on page 
46 of the appendix.]
    Chairman Miller of California. Thank you, Mr. Kolbe.
    Mr. Mosbacher?

STATEMENT OF ROBERT MOSBACHER, JR., CHAIRMAN, MOSBACHER ENERGY 
     COMPANY, AND PAST PRESIDENT AND CEO, OVERSEAS PRIVATE 
                     INVESTMENT CORPORATION

    Mr. Mosbacher. Chairman Miller, Ranking Member McCarthy, 
and distinguished members of the subcommittee, thank you very 
much for the opportunity to appear before you regarding the 
impact of the World Bank and multilateral development banks on 
U.S. job creation.
    As our country struggles with massive deficits and 
tragically high unemployment, it is only natural that someone 
question the wisdom of the United States' contributions to the 
World Bank and multilateral development banks. Given the fact 
that MDBs focus more on middle- and low-income countries and 
not the United States, the temptation of some might be to cut 
back on our contributions and to refocus those resources 
elsewhere.
    And yet such a decision would be extremely shortsighted, in 
my judgment, because it would negatively impact job creation at 
the very time when we are trying to rebuild our economy.
    I spent 28 years helping run a family business, an energy 
business located in Houston, Texas. And we operate primarily on 
the Gulf Coast of the United States, but we have also done 
business and operated in Los Angeles, North Africa, Asia, and 
the Asian subcontinent.
    Starting in 2005, I served for over 3 years as president 
and CEO of the Overseas Private Investment Corporation, an 
independent agency of the U.S. Government, that operates 
profitably and helps facilitate U.S. private capital investment 
in the developing world.
    I have had the opportunity to witness firsthand the 
emergence of an interdependent global economy, and observe the 
critical role that the MDBs have played in that growth. And I 
believe the United States in general, and American businesses 
in particular, derive significant economic benefits from the 
contributions to MDBs.
    I urge the Congress to continue that support. There are a 
few statistics I would like to touch on, and by the end of this 
hearing, you will have heard all these 3 or 4 times. But nearly 
95 percent of the world's customers, as Jim said, live outside 
our borders, and they have three-quarters of the purchasing 
power.
    One in three acres of American farmland is planted for 
consumers overseas. One in five American jobs is related to 
trade. For every 10 percent increase in U.S. exports, there is 
a 7 percent increase in employment. Over 280,000 small and 
medium-sized businesses export, and that amount is nearly one-
third of all merchandise exports.
    Now, you can ask, what is the role of the MDBs in this 
scenario, and why should taxpayers support them? The answer, 
very simply, in my judgment, is jobs. It is in our own 
enlightened self-interest to access new markets, new customers, 
and compete on a level playing field.
    Half of U.S. exports go to developing countries, and those 
markets are growing 3 times faster than exports to the other 
countries. We often hear about Brazil, India, and China. But, 
for instance, the 53, 54 countries on the continent of Africa 
will soon represent a consumer class of over a billion people.
    The MDBs are the most effective players in opening new 
markets and creating more favorable environments for business 
growth and investment. And using their leverage with 
governments, derived from the loans, and from the financial 
expertise they provide, the MDBs have been instrumental in 
establishing better governance, promoting more transparency in 
decision-making and bidding, and building stronger structures 
for the rule of law.
    Make no mistake about it. Corruption is and has been a 
plague on African economies, Latin American economies, and 
Asian economies that are in the emerging markets, and it is a 
fight day-to-day to overcome that. But progress is being made.
    I would like to focus the balance of my remarks on two 
specific sectors in which some of the MDBs have focused great 
attention and have had a hugely critical role in facilitating 
growth: the first is financial services; and the second is 
infrastructure. With respect to financial services, the truth 
is that most small and medium-sized businesses that will 
generate the vast majority of jobs--not just in this country, 
but around the world--have no access to credit or capital in 
most of the emerging markets, most of the developing world.
    As a result of this, you do not have the growth capacity, 
you do not have the hiring capacity. But most importantly, you 
do not have the capacity to buy U.S. goods and services that 
would be enabled by having a line of credit at a bank or the 
capacity to borrow money on any kind of a long-term basis.
    In recent years, that has begun to change, largely because 
of the IFC of the World Bank, of the ADB--or the African 
Development Bank, the Asian Development Bank, all of which have 
supported greater access to credit for SMEs with real results. 
This results in SMEs--again, in these countries--beginning to 
purchase American goods and services and products.
    With respect to infrastructure, the absence of sufficient 
electricity, water, roads, etc., continues to be a huge 
challenge to the developing world in realizing their economic 
potential. Over the next several years, you will see massive 
investments in infrastructure, and I am thinking particularly 
about electric power.
    Here again, this represents a wonderful opportunity for 
American companies to construct dams, to construct power 
plants, to operate power plants, to sell gear. And this is an 
opportunity that we should not lose. The MDBs are the principal 
financers of these projects, sometimes with commercial banks, 
sometimes without.
    But they are the lead party. You take them out of the game 
and you leave the Chinese in charge. And with the Chinese comes 
Chinese political influence, as well as Chinese approaches to 
transparency in governance, which I do not think most of us 
support.
    So in conclusion, I urge continued support of the MDBs for 
a host of reasons, not the least of which is the critical role 
they play in helping American businesses sell goods and 
services to the 95 percent of the world's customers who live 
outside our borders.
    More exports, more investment, and freer trade are the only 
ways that we are going to generate the kind of broad-based 
economic growth and prosperity for our citizens that we all 
desire. Thank you very much.
    [The prepared statement of Mr. Mosbacher can be found on 
page 55 of the appendix.]
    Chairman Miller of California. Thank you, Mr. Mosbacher.
    Mr. Harmon, you are recognized for 5 minutes.

STATEMENT OF JAMES A. HARMON, CHAIRMAN, CARAVEL MANAGEMENT LLC, 
 AND FORMER PRESIDENT, EXPORT-IMPORT BANK OF THE UNITED STATES

    Mr. Harmon. Thank you, Mr. Chairman, and Ranking Member 
McCarthy. My goal is to try to make a case without repeating 
what you have just heard, which is all very logical. Plus, they 
did it in the New York style, which was very quick, staccato 
fashion. And that is the challenge I have undertaken in the 5-
minute rule.
    First, I want to say that I am particularly proud of Ex-Im 
Bank. During the 4 years I was chairman, from 1997 to 2001, we 
increased support for exports to Sub-Saharan Africa from $40 
million the first year to a bit more than a billion dollars in 
the fourth year.
    The AGOA legislation was helpful. I thought that was a good 
piece of legislation, and that it memorialized the work of the 
Ex-Im Bank in Sub-Saharan Africa. My first experience with the 
World Bank was the $3.5 billion Chad-Cameroon project, the 
largest project finance done in Africa at this time.
    Ex-Im would never have done that were it not for the World 
Bank. We looked to the World Bank to give us comfort in a 
number of different areas. There were controversial aspects to 
it, but were it not for the World Bank, Ex-Im would not have 
done it. And Chevron and Exxon, which invested $3 billion in 
that pipeline, and very significant exports were supported, I 
give credit to an excellent structure that was created by the 
World Bank at that time.
    When I graduated from public service--and you should all 
know there is life after public service--we formed a fund to 
invest in the poorest parts of the world. Probably no one has 
ever testified in Congress before who ran a fund that invests 
in, I will say somewhat sarcastically, failing states.
    But we actually invest throughout Africa, in some of the 
poorest countries there. Also in Pakistan, in Lebanon, and 
throughout the Middle East. Our returns, in 7 years, are a 
little bit more than 19 percent compounded annually. And we are 
buying marketable securities that can be priced every day.
    So therefore, first, you can do well by actually investing 
in these countries. The role of the World Bank and the African 
Development Bank in encouraging us to make these investments, 
and understanding the countries and the companies, was 
important. Where we saw the World Bank and where we saw the 
African Development Bank doing work, for example, in a country 
like Rwanda--that encouraged us to take a look at Rwanda.
    Two years ago, we started to invest in Rwanda. We have 
invested. Rwanda has made remarkable progress in the last 18 
months to 2 years. So we have invested in the two public 
offerings they have done. Both have done extremely well. I give 
the World Bank and the African Development Bank a lot of credit 
for the growth that Africa, Sub-Saharan Africa, has experienced 
since I finished public service--which is running now at maybe 
5 percent per annum.
    So improving governance, democracy, transparency, and the 
rule of law are all very good things that the World Bank does. 
I jump ahead to January of this year. I was asked to be the 
representative from the United States to the G20 panel on 
studying ways to increase funding for infrastructure in, first, 
Sub-Saharan Africa, but in other states as well.
    Each of the G20 countries has a representative. It is very 
interesting. It was the first time that I have seen the power 
of the Chinese in meetings. So I sarcastically say that when 
each one of us was speaking, there was always someone else who 
was not listening or was typing on their BlackBerry.
    But when the Chinese representative spoke, no one took out 
a BlackBerry. The power that the Chinese now enjoy in the 
developing world, the significance--there are five Africans who 
are on this G20 panel--of their role in China I cannot 
understate, it is so important.
    During this period of time, I might say, the Ex-Im Bank has 
dropped from maybe 2nd or 3rd in size to maybe 12th or 13th in 
size in supporting exports relative to other export credit 
agencies. So, we are not doing a particularly good job. Not 
that I am critical of Ex-Im Bank, but the structure of our 
export credit agencies is not as competitive as it used to be.
    If we take away any support for the World Bank and the 
development banks, this is going to hurt us. It is going to 
hurt us relative to the position we have in China. It is going 
to hurt us throughout the developing world. The world is 
watching what the United States does all the time.
    They already think we are dysfunctional in our government 
practices for all the reasons that we know. But if we stop 
support for the World Bank and the other development banks, we 
are not only losing a good investment opportunity, but we will 
lose a power base.
    I suspect that China will, whatever we do, continue to be a 
very strong factor throughout the developing world. There is 
not a country that we invest in, in the poorest parts of the 
world--from Pakistan to Zimbabwe, to Lebanon, to all over Latin 
America--where the Chinese are not present.
    I am not sure the Members of Congress fully understand 
where China is coming from or where they are going, but the 
last thing we need to do is to slow down our support for a 
World Bank and the multilateral development banks. Thank you 
for having me.
    [The prepared statement of Mr. Harmon can be found on page 
42 of the appendix.]
    Chairman Miller of California. Thank you, Mr. Harmon.
    Mr. Leo, you are recognized for 5 minutes.

 STATEMENT OF BENJAMIN LEO, RESEARCH FELLOW, CENTER FOR GLOBAL 
   DEVELOPMENT, AND FORMER TREASURY DEPARTMENT AND NATIONAL 
                   SECURITY COUNCIL OFFICIAL

    Mr. Leo. Thank you, Chairman Miller, Ranking Member 
McCarthy, and members of the subcommittee. I appreciate the 
opportunity to speak about this issue, which I am very 
passionate about and have spent a lot of time looking at.
    While my written statement addresses a number of issues, 
some of which the other witnesses have touched on, I would like 
to focus on just a couple of key points. First, the MDBs have a 
very influential, key role in generating and helping to 
establish the next generation of emerging markets.
    I think India provides a really interesting example of the 
MDBs' role, economic growth, and U.S. support in contribution 
all come together in a way that is very beneficial for the 
United States, for U.S. firms, and for job creation as well.
    Over the years, the World Bank and the other MDBs have 
provided a significant amount of assistance to India to help 
build out its infrastructure, to reform its government 
policies, and a number of other areas that have a really 
important impact in terms of creating an environment that is 
conducive for the private sector.
    In the next couple of years, India is expected to graduate 
from the concessional assistance that is provided by the 
International Development Association, the soft-loan window of 
the World Bank, and move on officially to middle-income status.
    India is by no means an outlier in this case. According to 
my research, over the medium term, the near to medium term, 
about another 2 dozen countries who are currently low-income 
are going to follow, as well. In those cases, while you cannot 
say exactly in very quantitative, specific terms the role that 
the MDBs have played, we know without any doubt that they play 
an important role.
    You just cannot exactly quantify it in terms of the things 
that I mentioned before--infrastructure, the environment, 
effectiveness--in those areas. What does that mean in terms of 
the United States? Some of the other witnesses have touched on 
this. I will try and use some different statistics for you.
    So, five countries, the next ones that I expect to graduate 
from IDA and move on to middle-income status: India; Nigeria; 
Ghana; Zambia; and Vietnam. Collectively, those countries have 
grown. Their economies have grown fourfold over the last 2 
decades.
    But more importantly, U.S. exports to these countries have 
grown almost ninefold over the same period. So the role that 
the MDBs are playing in promoting economic growth is having a 
direct impact here at home. Just very briefly, as these 
countries move on to the hard-loan windows like the 
International Bank for Reconstruction and Development, that is 
going to mean that there is going to be a lot more demand for 
those resources.
    They are going to need more capital to be able to handle 
it, and to continue that process of promoting economic growth 
and helping U.S. firms. One thing that has not been stressed as 
much, coming out of the global economic crisis, or immediately 
after it, the MDBs stepped up big-time to plug holes, to try 
and minimize the fallout in the developing countries, as well 
as maintain some market confidence in those places.
    It had a very, very big impact for U.S. companies. Before I 
joined the Center for Global Development, I was at Cisco 
Systems doing business development in Sub-Saharan Africa, the 
Middle East, and North Africa. And what we saw in those first 
months--maybe 6 months, 12 months--after the crisis struck was 
that the contract opportunities that were stable were almost 
always MDB contracts.
    I did public sector sales. The government contracts almost 
completely dried up. So the MDBs were where we still had 
opportunities, and that is what was driving our sales numbers. 
It was very powerful. In terms of that procurement, just a 
couple of points on this.
    The direct benefits to U.S. firms are quite significant. 
Over the last decade, from just one of the MDBs, the World 
Bank, directly sourced contract awards, total about $1.6 
billion. While that is large, in my view it substantially 
underestimates what the true impact is.
    And again, I go back to my experience at Cisco. If you look 
at their lists of who won awards that are U.S. firms, you do 
not see any Fortune 100 companies on there. There is a reason 
for that. Because most of these firms are not directly bidding 
on the contracts. They are using third parties to then sell 
their goods.
    That is how Cisco does business throughout the world. So 
while Cisco was not in those databases, I personally was 
involved in millions of dollars of sales in Nigeria, Zambia, 
South Africa, Kenya, and Egypt which were financed by MDB 
projects and loans.
    Now lastly, on this issue in terms of the procurement, I 
think if you look at the MDBs, there is a very clear, profound 
benefit in the fact that their procurement standards are world-
class--transparent, open to all countries that are from 
countries of their MDB members, and very fair.
    My experience, compared to trying to win contracts that 
were financed by the MDBs, compared to host governments in some 
of the more difficult environments, it was night and day. We 
would never have tried to--there were a number of markets where 
we would not even try to go after the contracts at all because 
it was so nontransparent, unless they were an MDB contract.
    And when we were competing with the Chinese, it was an 
equalizer. Huawei is their big telecom company. We lost a lot 
of business to Huawei in the nontransparent environments. We 
could fight head-to-head with them on MDB contracts. So it has 
a very important impact.
    I will stop there, and thank you for the opportunity. And I 
look forward to any of your questions.
    [The prepared statement of Mr. Leo can be found on page 50 
of the appendix.]
    Chairman Miller of California. Thank you, Mr. Leo.
    Mr. Hardy, you are recognized for 5 minutes.

     STATEMENT OF JOHN HARDY, PRESIDENT, THE COALITION FOR 
                EMPLOYMENT THROUGH EXPORTS (CEE)

    Mr. Hardy. Chairman Miller, Ranking Member McCarthy, and 
members of the subcommittee, the Coalition for Employment 
Through Exports thanks you for the opportunity to testify on 
the impact of the multilateral development banks on U.S. job 
creation.
    CEE has a number of members who are actively engaged with 
the World Bank and other MDBs. We are also joined in this 
testimony by the National Foreign Trade Council. It is a strong 
supporter of the capital increase for the MDBs, and supports a 
broad pro-trade agenda.
    As you have heard from the previous witnesses, the impact 
the MDBs have on U.S. job creation is significant for several 
reasons. And I will try and keep this brief. The World Bank and 
the regional MDBs reflect the continuing commitment of the 
developed world to eradicate poverty and give people, wherever 
they live, the opportunity for a better, healthier life.
    It was not long ago that countries like China, India, 
Indonesia, the entirety of Sub-Saharan Africa, and much of 
Latin America were mired in poverty. After decades of work by 
the international community, through the MDBs, the situation 
for these countries has changed dramatically. These countries 
now have a growing and dynamic middle class that are potential 
customers of U.S. companies.
    A second benefit of the MDBs we are seeing today--that is, 
as the most dynamic portion of the world's economy is located, 
to a significant degree, in the emerging economies--their 
success has created new trading partners for the developed 
world, but particularly for the United States.
    The countries with which we are now trying to complete free 
trade agreements were all beneficiaries of loans from the MDBs. 
And many other emerging markets are even now recipients of MDB 
funding. A prime example is India, whose trade with the United 
States could well make its firm some of the largest users of 
the Ex-Im Bank.
    The successful transformation of these countries is due in 
substantial part to the MDBs. These countries have become 
inextricable parts of the international economy, and 
increasingly significant participants in the global trading 
system.
    The third benefit of the MDBs is reflected in the fact that 
the projects and activities themselves represent export 
opportunities for U.S. companies. MDB funding, coupled with 
resources contributed by the countries themselves, represent a 
vast opportunity for private business.
    The needs are immense, not only in infrastructure and 
energy, but now in medical equipment, IT services, 
communication systems, and the like. And U.S. companies are 
ideally situated to pursue these opportunities. Let me provide 
you with the example of Philips Electronics North America, a 
prominent manufacturer in the health care and green energy 
sector which has partnered with the MDBs for over 15 years.
    Philips provides high-quality medical equipment that they 
manufacture in the United States, such as MRIs, CT, and 
ultrasound machines, patient monitors, ventilators, ECG 
equipment, and cardiac defibrillators to developing countries 
through MDB programs.
    A senior Philips representative had this to say about the 
company's experience work with MDBs: ``Philips has witnessed 
first-hand the economic development benefits the MDB-funded 
projects confer on recipient countries, through our procurement 
experiences throughout the emerging markets.'' And they have 
listed, in the testimony, about 15 or more countries.
    ``This benefit does not inure solely to the developing 
country. However, as we also have recognized the role MDB 
projects play in helping to maintain our U.S. employee base of 
25,000, and potentially to create new highly-skilled U.S. jobs 
through the promotion of exports, as U.S. markets have declined 
or remained stagnant over the last several years, developing 
countries have led the world with double-digit growth rates.
    ``MDB procurement programs offer U.S. manufacturers unique 
opportunities to enter these vibrant developing markets through 
a transparent and accountable procurement system that limits 
the commercial risk.
    ``Moreover, manufacturers gain from the ability to increase 
their exports and to establish themselves within these growing 
consumer markets and develop a strong market position. These 
opportunities help to expand the overall U.S. industrial export 
base, supporting President Obama's goal of doubling U.S. 
exports by 2014.''
    As reflected in the above statement from Philips, a 
significant attraction to MDB processes is the existence, over 
the long term, of strong procurement standards that ensure 
transparency of process and accountability in terms of outcome. 
These elements are vital to promote multilateral development 
goals, while maintaining the highest standards of integrity and 
transparency in global procurement.
    We hope the subcommittee will monitor any dilution of these 
time-honored standards. Accordingly, we propose the following 
recommendations to the World Bank and the other MDBs to ensure 
a predictable and accountable procurement system for all 
bidders: maintain the current international competitive bidding 
procurement standards and bidding documents; maintain bank 
procurement oversight of projects involving complex solutions 
and projects over the current procurement thresholds; enhance 
mechanisms for dialogue with civil society; ensure that any 
innovation which involves substantial changes to the existing 
procurement standards and processes will be tested through a 
pilot phase; and ensure that any proposed procurement changes 
should continue to provide real-time effective recourse to 
bidders for procurement issues, including oversight by the 
integrity units of the MDBs.
    We thank the subcommittee for the opportunity to submit 
this testimony regarding the important role of the MDBs, and I 
am happy to answer questions. Thank you.
    [The prepared statement of Mr. Hardy can be found on page 
38 of the appendix.]
    Chairman Miller of California. Thank you. I thank each of 
you for your testimony. It was very informative.
    The goal of this subcommittee has been to focus on jobs. 
How do we create opportunity for American businesses, thereby 
creating jobs in this country? I think we did a very good 
bipartisan job on Ex-Im, and our goal is to accomplish that 
here.
    And Chairman Kolbe, it is wonderful to have you back here 
with us again. It brings back a lot of memories, I know, for 
both of us. In your testimony, you talked about the important 
role that MDBs played in the global economic recovery.
    Will you comment on how this fits into the broader efforts 
to stabilize and improve our economy here in this country?
    Mr. Kolbe. Mr. Chairman, it does definitely fit into the 
broader stable of broader and more stable economy here at home. 
Because we live in a--it is trite, but we have said it before 
and we all know it is true--world that is increasingly a 
globalized economy, it is important for us to not only have 
access to markets abroad, which can be found through trade 
agreements, but also through investments which are being made 
abroad. We also increase our investments and our trade abroad 
when these economies grow.
    You have heard many of the statistics that have been 
repeated here today about how it has happened in countries like 
India and Vietnam, how we have had a ninefold increase in our 
exports to those countries, while their economies have grown 
substantially.
    Part of that growth comes about as a result of the 
investments that we make in these MDBs, not all it or even the 
major part of it, but it certainly is a piece of it. So that is 
why I said, in my last paragraph or so, my closing remarks, 
that we are not talking about charity here.
    We are talking about investments. And I do understand the 
really difficult position that you find yourself in today, with 
the enormous debt that we are facing, and the difficulties of 
trying to match that with the revenues.
    So I think it is important that as you do, you think about 
what things are really investments--investments in jobs, 
investments in the economy, investments that will help to grow 
this country. And, as a result, increase the revenues for the 
U.S. Government.
    I think the MDBs clearly do that. There have been a lot of 
studies done that demonstrate that fact. I cannot tell you here 
today exactly what the different kinds of replenishments that 
are being talked about, exactly how many jobs it is going to 
create. But I do know that it is going to help the economy here 
in the United States. It is going to help jobs here.
    Chairman Miller of California. Thank you.
    Mr. Leo, and Mr. Harmon, you both talked about the 
situation with China. What do you think MDBs should do to 
become an attractive alternative to countries like China for 
developing finances?
    Mr. Leo, then Mr. Harmon? Either one?
    Mr. Harmon. May I add something to what was just said now?
    Chairman Miller of California. Sure.
    Mr. Harmon. U.S. share of global consumption between 2002 
and 2008 went from 38 percent to 28 percent--38 to 28 percent. 
That is U.S. share of global consumption. The emerging markets, 
including the BRICs and all the other frontier countries, went 
from 23 percent to 33 percent.
    It is only a question of time before global consumption--
emerging markets, all the markets that we are talking about 
today--will exceed 50 percent. So if the United States intends 
to export into that world, and to pick up this new consumption 
with the growth of the middle class, it needs the MDBs and the 
World Bank to continue to play the critical role that they have 
played.
    Chairman Miller of California. They share, as partners, 
with the Ex-Im Bank, in many cases.
    Mr. Harmon. Yes. We just would not have done it unless we 
felt comfortable with what the World Bank was doing in all the 
major projects. I think it is still done. The World Bank takes 
the leadership role there in these major infrastructure-type 
transactions on projects.
    Chairman Miller of California. Okay.
    Mr. Leo?
    Mr. Leo. Mr. Chairman, just a couple of quick additional 
points. And I think Rob Mosbacher actually mentioned this a 
little bit previously.
    There are a couple of things in terms of what the MDBs can 
do on the China issue and the influence issue. The first is the 
one that I mentioned briefly on the procurement standards. The 
procurement standards are a great equalizer and an opportunity-
creator for U.S. firms.
    So, the more money that is channeled through those types of 
systems, the better it is for U.S. business. And the MDBs not 
only are helping create those with their own dollars that they 
are allocating on the ground, but they are also playing very 
active roles in terms of trying to reform the countries' 
procurement standards themselves.
    So non-MDB financed; it has a positive spillover effect, 
which I think is very important.
    Chairman Miller of California. They are modifying the 
system in large--
    Mr. Leo. Exactly. The reform.
    The other issue which has been mentioned a couple of times 
now, is if the MDBs are not in a couple of sectors--say, for 
example, hydropower in Africa--it is going to be the Chinese 
who build those dams, which means GE is not going to be selling 
turbines.
    And it means that the impact on the local communities is 
going to be much more significant than it would be if an MDB 
was involved in the project. We are seeing this in Ethiopia. 
The African Development Bank got pushed out of a deal, and all 
of a sudden a number of the safeguards that were negotiated 
with the Ethiopian government are no longer there, including 
some assistance packages.
    And I will be extremely surprised if any U.S. companies are 
able to win some procurement contracts from that particular 
project.
    Chairman Miller of California. Thank you. I have many more 
questions, but I ran out of time.
    Ranking Member McCarthy, you are recognized for 5 minutes.
    Mrs. McCarthy of New York. Thank you. And I want thank 
everybody for their testimony. It was actually a pleasure 
reading everybody's testimony because you were all on the same 
page. So when the chairman says this is definitely a bipartisan 
issue for us, it is.
    But there is one issue that I want to explore a little bit 
further, because we are in Congress. At times, we have to 
explain to our Members why this is so important. I want to go 
back to the China issue, because I do not think people 
understand. If we do not pay our share into the World Bank, we 
lose a rating, which means someone who comes in will pay a 
higher share. I would appreciate it if anybody here would 
explain that to the panel.
    Mr. Leo. The MDB that I know the best that is relevant on 
this issue is the African Development Bank. If the United 
States does not provide its contribution for the general 
capital increase that creates an opportunity for other members 
of the institution to buy those shares.
    So our voting share declines, and China could come in--or 
another country, but more likely it would be China--and pick up 
those shares.
    Which means beyond just the symbolic effect, the message--
which is very damaging for U.S. influence worldwide--has very 
direct institutional governance implications, as well, in terms 
of what the United States is able to push through, in terms of 
the institution, some of the kind of governance issues.
    So it is a huge danger. And I hope it is one that does not 
come to pass.
    Mrs. McCarthy of New York. I guess I want to follow up on 
that. Because from what I understand from the reading that I 
have been doing, it puts our values on it. We have our values 
to be able to put on to the say on how we work with the money 
in the World Bank.
    And I think that is important for people to know. With 
that, Mr. Harmon, with your experience in developing countries, 
I am interested in your thoughts on the positive involvement of 
MDBs, and how U.S. participation has impacted developments 
within these institutions.
    I believe it was the Congressman's testimony that talked 
about how hard it is for us to go home and sell this to our 
constituents. I get yelled at all the time. And I try to 
explain to them, we only use basically 1 percent of our 
national budget to be able to do all the things that we do.
    But again, this is about jobs, and how many jobs we can 
bring into this country. So if you could expand on that, I 
would appreciate it.
    Mr. Harmon. Thank you. If I could just add one thing to the 
last point, I think the Chinese run as a non-member of the 
OECD. They do not have any environmental standards. They do not 
have any of the rules. So they are delighted to operate 
independently.
    And even the representative from China, who was at the G20 
panel with me, we have gotten to know each other a bit--
recognizes this extraordinary advantage to be able to go to the 
countries in Africa, or anywhere--whether it be Pakistan or 
whether it be the Middle East--and propose projects which have 
no environmental standards. It gives them a big advantage in 
selling the product.
    Also, the fact that they do not have to be concerned about 
interest rate factors. It is no wonder that China's export 
credit agency now supports $250-plus billion, and is heading 
towards a much larger number. We have to wake up to the fact 
that they are operating with a different set of rules.
    The only way we can really continue, in my opinion, to even 
come close is by keeping the World Bank and the multilateral 
development banks strong. Because there, at least as Mr. 
Mosbacher has alluded to, you have a much better chance of 
winning business for the U.S. side.
    Because in those areas where procurement involves the 
development banks, we have close to a level playing field, but 
still not a level playing field. So I am very concerned. Even 
if we support them, as I think we have to, we are still running 
against a very tough rival and competitor in China over the 
next 5 years.
    Mrs. McCarthy of New York. I agree.
    Mr. Leo, in your testimony you recommend that government 
play a role in helping U.S. companies win more MDB procurement 
work. Could you go into a little bit more detail on how we 
might possibly do that?
    Mr. Leo. Yes, I have some thoughts. And I think a lot more 
thinking needs to be done. My thoughts are more from 
experiences of going after some of these contracts for a couple 
of years.
    I think there is a very strong role that the U.S. 
Government can play from a commercial advocacy side. Whether it 
is an MDB project that you are bidding for or some other type 
of contract, in certain circumstances, in particular an 
experience that I had in Nigeria, I was able to see how 
powerful it could be.
    And it was not necessarily, or it was not at all, an issue 
of undue influence. It was more that when the U.S. Government 
got involved, it was to stress that we needed transparency, 
that we needed a competitive environment, and those types of 
equalizing messages.
    And it gave me a fair shake to try and get business. So 
whether it is an MDB project or not, I think that this should 
be looked at much more closely. Now within that context, I 
think that there could be a fair amount of rationalization 
within the embassies in terms of their presence, where they are 
focused on growing certain embassies in this space, and moving 
others around.
    I think there is probably a number of other pieces that 
could contribute to a broader strategy, which is a pro-export, 
pro-growth strategy in the MDB procurement space. But this is 
just one issue.
    Mrs. McCarthy of New York. Thank you.
    Chairman Miller of California. Vice Chairman Dold, you are 
recognized for 5 minutes.
    Mr. Dold. Thank you, Mr. Chairman.
    Chairman Kolbe, if I can just start with you, in your oral 
testimony you had mentioned, in wrapping up, that not all 
multilateral development banks are created equal. They are not 
all doing as well as some of the others. Do you have any in 
mind that are not performing as well right now that we should 
be looking at and focusing in on?
    Mr. Kolbe. I thought I would not play the picking the 
winners and losers here today. But I do think that it is 
worth--and there is a good deal of data available that you can 
look at that can show which ones have been better stewards of 
the money, and which ones have projects that have suffered from 
more corruption and misuse, and have not been completed.
    I think that some of this data can be put together and you 
can get a pretty good track record from them in terms of 
determining which ones have done the best. I want to make it 
clear that I think, in general, the MDBs have done a good job.
    But I think there are some that do better than others.
    Mr. Dold. And I will certainly follow up with you to try to 
get more of that data. Because I would like to look deeper into 
that.
    One of the things that I was actually surprised about--and 
I know this is really more focused in on jobs--is the fact that 
we did not really talk about national security and how the 
banks actually will help us in terms of our own security 
abroad, how we are able to influence those emerging markets and 
the like.
    And I am sure we can get into that a little bit. Mr. 
Mosbacher, you talked about how supporting the banks is really 
supporting jobs. We are going to try to go back and sell this. 
Certainly, I think we are all pretty much on the same page. Can 
you give us some specific examples?
    Mr. Hardy talked about exports and the statistics about how 
for every billion dollars we increase in exports, I think the 
statistic is we create about 6,250 jobs here in the United 
States. And that is something that I think that we ought to be 
focusing on.
    But with the banks right now, can you give us some success 
stories that we can use, not only for our fellow colleagues, 
but back in our districts about wins that the development banks 
are doing for American business?
    Mr. Hardy. You could take the area of our sector of 
infrastructure as a great example. And, beyond the sale of 
turbines by GE or sale of large pieces of equipment that 
American companies compete for, there are also an 
extraordinarily large number of smaller parts and controls and 
items that are manufactured in towns all over America.
    What we do not do a good job of is tracking how those 
collectively all add up to jobs. And that is why some of the 
statistics, I think, are overwhelming in terms of the 
importance of growth in exports, growth in sale of services to 
growing our economy.
    I just do not see the growth in the United States at a 
level or at a breadth that will drive the kinds of job creation 
or the kind of job creation that we are seeking. In the 
infrastructure field, it is not just the small parts or the big 
parts. It is also the management of these projects.
    There are companies like AES. Or there is a little company 
out of New York called ContourGlobal that just built the first 
100-megawatt project in Togo, for instance. And again, financed 
with support of international financial institutions. 
Commercial banks would not touch it.
    And that is going to be the pattern you are going to see in 
so many of these developing countries is you just will not get 
commercial banks to take that risk without a backup from an 
MDB. So as we look at how do we sell more equipment, how do we 
sell more systems, how do we sell more management and controls, 
I think the MDBs are going to play an integral role.
    Mr. Dold. Certainly, I understand your point on the small 
businesses. We have 650 manufacturers back in the 10th 
District. It is the third-largest manufacturing district in the 
country, which is surprising to most, just north of Chicago. 
And we get that. We need to make sure that we are beefing up 
those parts that are getting sold.
    Are we getting an advantage because of the MDBs? Does 
America have some sort of a competitive advantage in winning 
that business?
    Mr. Hardy. I think we have a competitive advantage if there 
is a relatively level playing field. I am quite confident that 
we can compete effectively. But I have also seen playing fields 
that were not level at all, and the fields of the sort that Ben 
Leo has mentioned, for instance, or Jim Harmon has mentioned, 
which the Chinese have come in with.
    And we have been negotiating to try to get them not only to 
do open, competitive, transparent bidding, but also to lay out 
specs on the bids that we can all comply with. The Chinese show 
up, decide, ``No, we are just going to negotiate this situation 
with you. No reason to go through this open government thing.'' 
And the next thing you know, there is a big, front-end-loaded 
cash contract with all sorts of frills that the United States 
companies have absolutely no chance of competing with. So, 
level the playing fields.
    The MDBs are the principal referee in a lot of these games. 
And where they are the designated referee, we have a chance. 
Where they are not, in markets where the Chinese are 
interested, it is a tough fight.
    Mr. Dold. I thank you.
    Chairman Miller of California. Mr. Scott, you are 
recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    I find this to be a really fascinating subject, and I 
really enjoy this subcommittee, because it is getting right to 
the heart of an area I care very much about. I think it is 
important to state just how significant you are, particularly 
in relationship to the fact that our contribution to foreign 
aid period is about 1 percent of our overall budget.
    And the amount that we contribute to the MDBs is just 5 
percent of that 1 percent, which amounts to 0.05 percent of our 
overall budget. We get great returns for that. But I think it 
is somewhat puzzling that in challenges we are measuring the 
success of what we want to do with an organization whose 
primary aim is international development, by how many jobs they 
create in our country.
    Which is a challenge to all of us, as you were pointing 
out, Mr. Mosbacher. And I share that concern. It is sort of 
like measuring the success of a car by how well it floats. That 
is not the function of what this is. But it is noble, and it is 
what we all care about.
    But I want you to explore that a little bit as we move 
forward on the difficulty of that. And our challenge is, how do 
we really make that happen? But I do want to mention something 
else. Mr. Kolbe and you, both, and I think Mr. Harmon, 
mentioned something that I am very, very concerned about.
    And that is China. I especially feel like the real future 
area of the greatest magnitude of benefit and opportunity is on 
the continent of Africa. And so I went there, and went into the 
dark heart of Africa. If you are familiar with Africa, when I 
tell you I went to Goma, I think you will know I really went 
into serious Africa.
    And an interesting thing happened. The natives over there 
would come up to us as we went from place to place--and this is 
a serious, serious, devastating place, with the lava and all of 
that and all of the fighting that is going on--and they kept 
saying to me that the Chinese are here, the Chinese are here.
    And I would hear that where we are going. I was shocked. 
But come to find out, they are really there. And they are 
building railroads, they are building schools, they are 
building hospitals. And it seems that the only thing that they 
want in return for this, I found out is, their requirement is 
that they learn Chinese.
    That is very interesting. And if that story does not 
motivate us in this country to understand that China is serious 
competition and we truly need to realize that we need to really 
step up to the plate and really become competitive in this in 
our efforts.
    And we might want to change our measurement, or at least 
expand it, to not only just the jobs that we can get back in 
this country from this. But the measurement and our role in 
being competitive with China.
    But my question is, I wanted to ask if you could elaborate. 
This is kind of a difficult challenge here, measuring an 
institution whose basic aim and basic consequences--
international aid and development--we measure success on the 
number of jobs it creates here.
    Just how serious is this box that we are put into? Mr. 
Mosbacher, would you respond to that?
    Mr. Mosbacher. I think part of the problem is that many of 
the MDBs do so many different things that it is hard to 
identify job creation or opening a market distinctly with that 
MDB alone. It is a variety of factors. Some would argue that 
democracy and governance is every bit as important, and 
improvements in democracy and governance are every bit as 
important as economic development.
    But I am convinced that the MDBs facilitate, enable, and in 
many ways actually drive investment into markets where there 
simply has been nothing going on. Until they get there, you do 
not see anything going on. And then all of a sudden, things 
start to happen. And then it has kind of a demonstration effect 
on other businesses who will come in and invest.
    Jim Harmon is willing to go do private equity deals in 
places that would strike most Americans as extraordinarily 
challenging because he has been there and he knows high-risk, 
high-reward.
    Mr. Scott. No, I want to just get one--
    Chairman Miller of California. Unanimous consent to give 
Mr. Scott an extra minute, because I know you missed out on 
opening statements.
    Mr. Scott. Oh, you are mighty kind. Thank you. That is why 
you do such a great job as chairman. Thank you so much.
    Let me ask you, Mr. Kolbe, or Mr. Harmon, any of you, how 
are the Chinese measuring their success? Are they measuring it 
with how many jobs that they are creating back in China on 
this? Or in other words, it might be wise for us to have a 
broader vision, to be very serious about this.
    What do the Chinese say they get out of it? How do they 
measure their success in it? Jobs back home?
    Mr. Kolbe. Mr. Chairman, others will, I am sure have a 
comment on this. Your comments, Mr. Scott, were very 
interesting. Because I was just in Malawi a couple of months 
ago, and I saw the same sort of thing that you were mentioning 
there, where the Chinese had moved in in a very large way.
    They have built a stadium. That is typical of what they do. 
And they have built a very large hotel and conference center 
there. Not exactly things that help people an awful lot. But 
they have also, in the countryside, moved into a very large 
amount of agriculture development.
    But the interesting thing is, their people are now 
scattered throughout the country. And they stay there after 
they finish these projects. They remain there. They have their 
own set of clinics, their own set of schools, their own set of 
stores and retail businesses.
    And what they are doing is essentially spreading Chinese 
influence there. I think what they are looking for is, they 
understand that these markets may be very small right now but 
they know they are emerging and they are going to be much 
bigger.
    And they expect that business will come their way. That 
these people, just as they have done in places like Malaysia 
and Singapore and Indonesia, where you have had for more than a 
hundred or several hundred years Chinese communities there that 
still have ties to the homeland, and business connections as a 
result of that, that is what they are looking for in Africa.
    They are basically cleaning our clock in Africa right now, 
and Europe and the United States are both in the same boat in 
this.
    Chairman Miller of California. We should have time for 
another round of questioning so we can expand on that in the 
second round.
    Mr. Campbell, you are recognized for 5 minutes.
    Mr. Campbell. Thank you, Mr. Chairman. You all speak with 
one voice. I hear you. What is unsaid here is that we are being 
asked, or will be asked, to authorize nearly a billion dollars 
of taxpayer money for the World Bank. You all know what is 
going on now, and this weekend.
    And so as you have all alluded to, the pressures around 
that. And on the margin, obviously, any dollars we spend are 
100 percent borrowed. And there is a little irony there that we 
would borrow this money from the Chinese, the Indians, and the 
Brazilians to put into a bank to loan to the Chinese, the 
Indians, and the Brazilians.
    That irony is not lost on me. But my question is this: I 
heard a number of you use the term ``investment'' a number of 
times, and many times that is used as a euphemism for 
``spending.'' But that is not the case here, and I get that, 
that the MDBs and the World Bank lend money and it gets paid 
back with interest, and that they make money.
    But that then we take that money and put it in IDA, and 
then many times we loan it--``we,'' the World Bank--and then it 
does not get paid back. The question I have for you is this. Is 
there a way to look at this, or to change this or whatever, so 
it is more of a true investment in the sense that we put money 
in and perhaps get a return on it.
    Or at the very least, not eventually lose that money that 
we put in. But at least keep it reinvested. Because what you 
are all here to talk about is the non-direct, the indirect, 
return from this investment in the bank. And I get that
    What I am asking is, is there a way to change the actual 
return, which currently is negative in terms of the U.S. 
taxpayer?
    Mr. Mosbacher. I would argue that some of it is a grant 
and, as you said, it is simply mitigating the impact of 
poverty. But you can look at from a national security 
standpoint and say, ``Fine. To the extent that poverty becomes 
breeding grounds for violent extremism then maybe we ought to 
be mindful of that and try to prevent some of these things from 
deteriorating any further.''
    I think on the investment side, and by ``investment,'' I 
mean things you get a return on--
    Mr. Campbell. Right.
    Mr. Mosbacher. --I think we could do a much better job of 
structuring transactions in which public sector players team up 
the private sector players so the public sector dollars are 
being used to catalyze or to leverage more private sector 
investment. What do I mean by that?
    Like building a farm-to-market road that has to be built in 
order to get increased produce from an area that wants to sell 
under the international market to a market in a timely way. By 
the same token, I think, and this is a conversation we could 
have about foreign assistance, U.S. foreign assistance could be 
used much more strategically to enable private sector-driven 
economic growth.
    And that conversation should take place. The same thing 
could take place with the MDBs.
    Mr. Campbell. Any other comments? Yes?
    Mr. Leo. Yes, if I could, I just want to add another point. 
If you are looking for a way to think about this in terms of a 
direct return or a direct investment, I actually think when the 
general capital increase, or the GCIs, are the cleanest for 
trying to find that, frankly, if you are not talking about 
national security or or poverty or something like that, take 
the last GCI for the World Bank, the IBRD.
    The United States contributed about $420 million over a set 
period of time. And that GCI lasted, I guess, 23 years or 
something along that. That is how long that capital lasted them 
before they needed to go back to the till and get more.
    And so, the United States was probably paying in maybe a 
third of that time, and getting procurement contracts during 
that time, as well. Once they quit paying in, once the U.S. 
Government stopped having to pay in, they are still getting 
procurement contracts and you are still getting financial 
benefits.
    So over the last 10 years, IBRD contracts, U.S. firms--and 
this is the issue that I was differentiating before--just 
direct procurement contracts were about $700 million. And I 
would argue it is much bigger are able to quantify, in some 
way, the indirect third-party sales, as well.
    So this goes back to, on the GCIs, the leveraging issue. It 
is very big, and it is very powerful.
    Mr. Campbell. And in my last 11 seconds I will just, and I 
do not know how, and maybe but to Mr. Mosbacher's point, some 
of this stuff is grants and some of it is not grants. Maybe 
there are some ways we look at this to separate those.
    I just happen to believe, not just in this case but in 
other cases of things we deal with here, when you know you are 
not going to get something back necessarily, this is true in 
housing and other things, if you sequester that, and you know 
what that is and you identify that, and you do not confuse it 
with the part which you do expect to get back, I think it is 
just better clarity in budgeting, or authorizing.
    And I yield back. Thank you for your indulgence, Mr. 
Chairman.
    Chairman Miller of California. Ms. Moore, you are 
recognized for 5 minutes.
    Ms. Moore. Thank you, Mr. Chairman. And I want to thank the 
panel for appearing.
    The hearing title is, ``The Impact of the World Bank and 
Multilateral Development Banks on U.S. Job Creation.'' And 
certainly, we are all concerned about that. So I guess my 
question is, how do we track, how do the MDBs leverage U.S. 
commercial lending to, in fact, make sure that we are creating 
more exports?
    I am really interested in the mechanics of this. Does a 
potential exporter approach the commercial bank? Because if 
they do, they are liable to be turned down, particularly in 
this environment. So how, really, does it operate that American 
businesses have the opportunity to interface with the MDBs?
    If we are going to be making this investment, we want to 
make sure that this is accessible.
    Mr. Harmon. If I may take a crack at that, the joint 
financing that was done for Ethiopian Airlines with the African 
Development Bank, together with the U.S. Ex-Im Bank, if the 
African Development Bank had not played a role, Ex-Im would not 
have done it.
    Boeing was the beneficiary. Boeing is, sadly, not at this 
table. But if they were here, Boeing would be able to give you 
chapter and verse on the number of small and middle-sized 
companies in the United States that participate in every Boeing 
equipment. They have become very good at that.
    And it is very important for jobs in small and middle-sized 
companies all over the United States. I have five other 
illustrations where I have followed, all of which are 
impressive. With regard to Africa, we could be discussing this 
in other parts of the world, too.
    The African Development Bank was the lead arranger and 
financer of the Main One fiber cable project in West Africa 
with Tyco. They finance the Kivu Watt Power in Rwanda. That was 
particularly important for Rwanda. In the next few months, 
Rwanda will announce that they are buying equipment from Boeing 
for their airline now.
    Again, each one of these--and I could give you three others 
that I have listed here that I have watched the African 
Development Bank work on--which, had they not done it, the 
United States would not have benefited as exporters and jobs 
would not have been created.
    So I am frustrated a little bit that I cannot come up with 
an answer from the Congressman who raises what is the specific 
return that we can earn from this. It is an impossible 
question, in my judgment. We can show how, without the African 
Development Bank and the World Bank, certain jobs would not be 
created.
    Mr. Mosbacher. May I add to that?
    Ms. Moore. Yes, sir, Mr. Mosbacher?
    Mr. Mosbacher. I want to reemphasize a point I mentioned 
during my testimony because it is so critical. I do not know of 
a single business that I have ever been around where access to 
credit was not pretty important to your survival, much less 
your growth.
    And yet, many of these SMEs in the developing world simply 
have not had access to that. That is changing. That is a sea 
change, and it is changing because MDBs are coming in alongside 
commercial banks and sharing the risk on loan portfolios that 
are not 12 months or 60 days, and 30 percent interest rates. 
They are 5-year and 7-year term limits.
    Ms. Moore. Who initiates it? What does the commercial 
lender do when a deal comes to them? Do they call the MDB, or 
does the MDB initiate the--
    Mr. Mosbacher. Usually, the borrower initiates how they are 
going to be able to finance the transaction. So, ``borrower'' 
is the person who wants to expand the business or make--
    Ms. Moore. But they do not necessarily know about the MDB.
    Mr. Mosbacher. Oh, many do. Many do not. But the MDBs have 
actually taken the initiative in the last 3 to 5 years to go in 
and look at banking systems and seeing where they can partner 
with commercial banks to say, ``All right, let us start lending 
to SMEs so they can buy more goods and services,'' which 
includes American goods and services.
    Ms. Moore. And so to mention goods and services, Mr. 
Mosbacher, in your testimony you articulated a truth, that 95 
percent of the world's customers live outside our borders. And 
80 percent of Sub-Saharan Africans have no infrastructure, do 
not have any electricity, and so on and so forth.
    The United States is really struggling to have some kind of 
comeback in U.S. manufacturing, but there has been a real shift 
in providing services. So how do the MDBs support American 
service industries like banks and insurance companies?
    And to what extent are there activities, or are there 
markets, for services in the way of exports?
    Mr. Harmon. Yes, there are a number of financial services 
that are created throughout all these countries in terms of 
doing the arranging for the financing. Certainly, legal 
services. Even the small business that we run, with 14 people, 
is involved in investing throughout Africa.
    To the extent that the African Development Bank and the 
World Bank are involved, that gets us involved. So there are 
many illustrations of financial services and legal services and 
engineering service companies. In fact, most of the services 
related to project finance benefit the United States.
    Maybe not quite as dramatically as when they buy an 
aircraft or when they do a major pipeline type project but, 
certainly, services benefit.
    Chairman Miller of California. Mr. Manzullo, you are 
recognized for 5 minutes.
    Mr. Manzullo. Thank you. Jim, it is always good to see you 
here, and miss you. And then the great codels we used to take 
to Mexico and all the fun we had.
    Mr. Kolbe. Thank you, Mr. Manzullo. It is a pleasure to be 
back with--
    Mr. Manzullo. I am sure you do not miss it.
    Mr. Kolbe. --good friends like you.
    Mr. Manzullo. I miss you also.
    Gwen and I serve on the manufacturing caucus, and she has a 
Harley Davidson, and we are big into grease in our 
congressional districts. And also we have, in our district, 
Rockford, Illinois, nothing less than 90 manufacturers that are 
involved in private jets.
    I get very upset when President Obama talks about the 
people flying private jets, and I think about companies such as 
Skandia, with about 89 employees, that makes seats for these 
private jets. And the reason I bring that up is the lack of 
understanding in most of this country, especially in the White 
House, as to the basis of manufacturing.
    I have a constituent who utilized the program that I set up 
in the Ex-Im Bank for small businesses, an $11,000 transaction 
so that she could afford to export. And I thought that was 
remarkable. We have worked with OPIC. I chair the Small 
Business Committee.
    A lady by the name of Monique Matty, born in Liberia, 
became a U.S. citizen, got an OPIC guarantee, and went into 
business in Tanzania and Ghana. And it was at that point, with 
Danny Davis who was sitting on the committee with me, to see 
what OPIC was doing in Africa. And the bottom line is that both 
OPIC and Ex-Im programs make money for the United States.
    We, of course, want to push OPIC and Ex-Im to concentrate. 
Not concentrate, but to make more money available for the small 
businesspeople. But the problem that we are having with the 
World Bank is the fact that Argentina defaulted on $81 billion 
in sovereign debt, has stuck many American investors.
    Bond holders that won over 100 U.S. Federal court 
judgments, in excess of $7 billion. There has been $900 million 
in arbitration awards threat the ICSID arbitration process. And 
yet, the World Bank continues to give money to Argentina. And 
we are looking at a situation here where this Congress may 
decide to defund the World Bank.
    I cannot impress on the people at the World Bank enough 
that they have to do something except, we will work with you, 
we will do this. We had a hearing here about 3 weeks ago, and 
the same thing happened again. World Bank turned around and 
gave $400 million more in loans to Argentina.
    And my question to anybody who wants to tackle it is, why 
should the United States, why should this Congress, continue to 
support the World Bank when it does not back U.S. citizens who 
have been stuck with Argentina debt, and shoved it right in the 
face of American investors and bondholders and other world 
investors, and yet continue to be a recipient of the World 
Bank.
    Mr. Mosbacher. I guess--
    Mr. Manzullo. You got stuck.
    Mr. Mosbacher. --Mr. Manzullo, the World Bank is operating, 
as its title suggests, all over the world. And I think we ought 
to continue to put as much pressure as we can on them to help 
protect those who have been defrauded, or stiffed, by 
obligations that are held by sovereign governments.
    But I personally do not believe that we would be doing 
ourselves a favor by cutting off the World Bank completely. I 
think we lose influence. In that situation, we would reduce our 
chances of being able to ultimately protect those who are 
impacted negatively by the failure of the Argentineans to pay 
their debts.
    Mr. Manzullo. But when you see that--go ahead, Mr. Harmon.
    Mr. Harmon. First, I would like to say there have been, 
obviously, some defaults. There was a default in Russia, there 
was a default in Argentina. There could be further defaults in 
Europe at some point. The amount of profits that Americans have 
made in the emerging world far exceeds any losses that have 
been exceeded--
    This is a very profitable area. In fact, one of the 
problems the United States had is increasing flow of capital 
from outside the United States to the emerging markets.
    Mr. Manzullo. But we could do that if we did not give any 
more money to Argentina. The World Bank will not even cut off 
the spigot to Argentina.
    Mr. Harmon. I am not sure it is the World Bank that the 
criticism should be leveled at. I think that a number of other 
major departments in the United States Government could have 
acted with Argentina, or shortly thereafter, to have been sure 
that there was a fair resolution on that debt.
    I do not think it was the World Bank who should have done 
it, myself. I think the State and Treasury Departments could 
have played a role there. But there are not too many 
experiences in the last 20 years. Argentina is one, granted, 
where there have been some losses. Clearly, there have been 
losses in Greece.
    There were a few others that we all can think about. But 
they are modest compared to the total amount--
    Mr. Manzullo. But you have U.S. citizens, who are 
bondholders who have been stuck with debt from Argentina, who 
are being asked to use their taxpayer dollars to give more 
money to Argentina through the World Bank. That does not pass 
the sniff test.
    Mr. Harmon. But I am not sure that the resolution is to 
thereby cut off the World Bank because of all the good the 
World Bank may do. I think that every multilateral institution 
is clearly going to do a few things that are not perfect. On 
balance, from my observation of the World Bank in the last 30 
years, they have done a lot more good than the few 
illustrations that you could be critical of.
    And I have some reservations about the Argentina 
illustration there. You will have other countries which are 
going to default on American investors. At least the Americans 
should have an investment agreement. We do not have an 
investment agreement with Russia, so Americans lost over a 
billion dollars on Yukos back in 2004 and 2005.
    We should have done something about that. I can give you 
other illustrations having nothing to do with the World Bank, 
but I think it is more Treasury that should be involved in some 
of these areas rather than the World Bank, when you are looking 
for criticism.
    Chairman Miller of California. The gentleman's time has 
expired.
    Mr. Manzullo. Thank you.
    Chairman Miller of California. We are going to have a 
second round. Mr. Manzullo, we had a meeting with the Under 
Secretary of the Treasury last week on this specific issue. And 
Treasury is trying to move forward, see what they can do on 
this. So we took your concerns to heart the last time you 
brought them up, and we are trying to--
    Voice. [Off mic.]
    Chairman Miller of California. They are moving forward to 
see what they can do, yes, sir.
    Mr. Perlmutter, you are recognized for 5 minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman. And I just have to 
say to my friend, Mr. Manzullo, about the corporate jets, I was 
hoping we would not get into a--firing across the bow for each 
other. But we want your people to work. I know I do.
    I just want to make sure that before I take it out of 
grandma's hide on Medicare that millionaires and billionaires 
are paying their fair share as we put our fiscal house back in 
order. And I think that is where the President is coming from.
    But having said that, speaking of jets, we now have the FAA 
shut down. Boeing, who was mentioned earlier, has several jets 
that are in the process of being tested--787s, big 747 cargo 
planes--that are to be sold in the international market that 
cannot be tested today because we basically do not fund the FAA 
completely.
    I do not know how many millions of dollars that is to the 
commerce of the United States. So, these games that we are 
playing with the budget have to stop. I do agree with Mr. 
Campbell. And Mr. Harmon, I want to direct these to you and Mr. 
Leo. We really do have money going in that we are probably 
borrowing on the margin.
    So we do need to know, generally, just like a bank gets 
money from its depositors and then lends it out and hopes to 
make a spread, hopefully I can show to my constituents, the 
people of the suburbs of Denver, that there is some real value 
here.
    There is maybe the spread, I can show an interest spread, 
or the intangibles are valuable. And the intangible that is 
most important to Americans today are jobs. So how do I show 
them direct jobs coming from providing funds to the World Bank 
or to any of these other banks?
    How do I show that? How do I quantify, you gave this amount 
of money to the World Bank. It provided this kind of return, or 
it helped us get this many jobs, and separate it from, say, 
USAID or Millennium Challenge Corporation or whatever?
    Do you understand my question?
    Mr. Kolbe. Yes, it is a good question. But I gave you, on 
the African Development Bank specifically, six financings--I 
just had to make notes to them before I came to the meeting 
here--where, in the last few years, if they were not involved, 
the financing would not have taken place.
    They would not have bought the equipment from the United 
States. We have these GE turbines, or Boeing equipment, or 
other pumps that we saw. Those transactions would not have 
gotten done without the African Development Bank. You could 
actually go a step further.
    I just did not have the staffing like I used to have when I 
was in the public service area to be able to do the 
calculation. But you could almost calculate the number of jobs 
created by each of those transactions. I have no question that 
part you could analyze.
    Mr. Perlmutter. I am just saying we need to do that, and I 
am sure we can. And if we are going to continue to provide 
capital for these organizations, I have to go back to my area, 
because they are asking, ``Why are we giving all this money to 
other countries? Why are we doing all this when we need to have 
people with good, long-lasting jobs here, where they got a 
chance to provide for their family, to have the American 
dream.''
    And I always say, it is just a tiny part. It helps us 
develop investments overseas and export. But for me, I really 
have to show them that this is 20,000 jobs. Boeing, right here, 
or Seattle, whatever. And you said we have made a lot of profit 
over time. We are definitely in a ``what have you done for me 
lately'' moment.
    Okay? So you have to show us. Otherwise it is hard, whether 
you are a Democrat or a Republican, to sell this stuff.
    Mr. Kolbe. Mr. Perlmutter, may I just respond to this? I 
share your frustration at wanting to be able to quantify this 
very precisely. But I think, as you know, in many of these 
areas it is very difficult to quantify very precisely because 
it is not as though it is a completely controlled experiment 
where you can isolate one thing.
    There are a lot of things that go into this. But I take to 
heart what you are saying, and I am going to go back and take a 
look. There have been some studies that I know that have been 
done that I think have quantified some of this. And I am going 
to see what we can find, and make that available to you.
    Mr. Mosbacher. Congressman, I would recommend that you find 
a few exporters in your district. They may be manufacturers, 
they may be farmers who are selling into these markets and 
whose purchases are being financed through lines of credit 
through local banks, or through trade finance, that exist in 
the purchasing country solely because of the MDBs.
    In other words, there is connectivity there.
    Mr. Perlmutter. And I want to support this. I just want to 
be able to show it. Because this is an uphill battle right now.
    So with that, I appreciate the chairman--
    Chairman Miller of California. Thank you.
    Mr. Perlmutter. --letting me take a shot at Mr. Manzullo. 
And I will move on.
    Chairman Miller of California. You guys get boxing gloves. 
We will figure this out.
    I ask unanimous consent to place a statement in the record 
from Philips Electronic North America. Without objection, it is 
so ordered.
    Mr. Hardy, would you you please comment on that 
relationship with multilateral development banks and Philips 
Electronic?
    Mr. Hardy. I think it is reflective--and this is why I 
wanted to include it in our testimony--of the fact that in a 
variety of sectors, U.S. firms are doing extremely well in 
terms of being able to market their goods and services within 
the MDBs.
    I think that the World Bank actually has an agreement 
focused on the IT sector. And so that companies like Cisco, 
Oracle, and others are very heavily engaged in terms of being 
able to expand their access into the emerging markets by being 
able to work through the MDBs.
    I certainly understand the concern the Congressman has 
raised. And I think that there are a number of issues around 
it. For example, the Department of Commerce has for years had 
commercial support officers actually in the banks who act to be 
able to assist exporters as they came in.
    They would not necessarily know their way around or who to 
contact. And because of limitations, Commerce is now thinking 
about withdrawing those individuals right at the time when we 
really need to be be doing more. So it is really an issue 
across the government in terms of being able to keep the pieces 
in place so that we have a system.
    But it is very clear that in particular sectors, such as 
with Philips, that they have a 15-year relationship with the 
MDBs. And as these markets have grown, as the middle class has 
developed, their market has only expanded. And so it has been, 
I think, very fruitful for them.
    But if I can add one element, and that is an element that 
actually they focused upon in the statement that they made, was 
it about the security of the procurement system? And in a way, 
this goes back in my mind to what Congressman Manzullo was 
talking about, which is that the MDBs need to understand that 
there are standards they absolutely need to comply with. And in 
terms of bankruptcy situations, in terms of people losing 
money, that there be consequences to that.
    There are clearly concerns within the business community 
about potential erosion in procurement standards. And I think 
that is very clearly an issue that needs to be monitored. Very 
clearly, if there is an erosion in the procurement strategies, 
then, very clearly, you are going to see American, European, 
and Canadian firms begin to back away from--
    Chairman Miller of California. That is the United States 
maximizing the financial benefits of MDBs that they create.
    Mr. Hardy. I think we are, as long as the pieces are in 
place. That needs to continue, so that it is difficult to be 
saying, on the one hand, we need to continue to expand the role 
that the MDBs are playing, and then at the same time for 
Commerce to be pulling out individuals who have a concrete role 
in terms of assisting exporters and U.S. companies in terms of 
getting work and understanding how the procurement process 
works and how they can maximize the benefits of that.
    Chairman Miller of California. And you talked about the 
growing middle class in Vietnam, Indonesia, countries like 
that, and how that is a benefit for the American workers. I 
have seen some of the tariffs placed on some of our exports to 
Vietnam that are quite outrageous. How are we dealing with a 
lot of those?
    Mr. Hardy. Trade rules an ongoing negotiating process. 
There is no question that everybody is looking to take 
advantage of the system, to try and work the system in a way 
that most supports their own particular situation, which means 
that the USTR and the Department of Commerce need to continue 
to be aggressive in protecting U.S. exporters and supporting 
rules of fair trade.
    And even as we continue to pursue free trade and FTAs--
because that is a necessary and, indeed, a critical part of the 
process, we cannot just enter in agreements, and then let them 
slide and not pursue, and ensure that the rules are being 
followed.
    Chairman Miller of California. Mr. Harmon, you painted 
quite a scary picture of what might result from reduced 
contributions for the MDBs from the United States, and the 
specific role China is trying to backfill. You argue in favor 
of spending funds over the years that go to directly to 
American jobs.
    Do you think that the picture you have painted is going to 
become a reality should we lose our position with the MDBs?
    Mr. Harmon. Yes, I do. I think this is almost a no-brainer 
in my mind. Because if we drop back, we are going to lose our 
leadership position.
    Chairman Miller of California. I agree with that. I would 
like to hear you expand on it.
    Mr. Harmon. Right. I have watched the G20 now in these 
meetings I have been attending for the last 8 months, and the 
other countries are constantly asking about what is happening 
in the United States. What is happening not only in our 
politics--because they do not fully understand that--but the 
role of the World Bank and the African Development Bank and the 
other development banks, too--who come to all of our meetings, 
by the way--are so important to all these other countries.
    If we take a position which says that we are not fully 
supporting them, someone else is going to fill the position 
that we are not. China is already at our throats, as far as I 
can see, on a competitive basis--
    Chairman Miller of California. [Off mic.].
    Mr. Harmon. And so it is so clear to me that this would 
just add fuel to a fire that we are having trouble controlling 
right now. I do not think the American people fully understand 
what this means long term for jobs in the United States.
    Chairman Miller of California. And it is our job to explain 
that. Thank you.
    Ranking Member McCarthy, you are recognized for 5 minutes.
    Mrs. McCarthy of New York. Thank you. And again, I want to 
thank everybody for their testimony. This is actually my first 
year on this particular subcommittee. I had an awful lot to 
learn, and I had to read a lot, and I had to ask a lot of 
questions to find out.
    Because I was probably like--Members of Congress, we know a 
little bit about everything, but we do not know a lot about 
some things. I went back to Long Island, and I wanted to find 
out because the first thing we were going to be working on was 
our exporting.
    I went to the Long Island Business Association, which is 
the largest business association on Long Island for small 
businesses. And the numbers that I received on how much we were 
making for Long Island on exporting blew my mind--$10 billion.
    So to answer some of the questions that my colleagues 
asked, those companies are all paying taxes. That, to me, is a 
way that, again, we are getting money back into the system. And 
the more I started digging in and educating a lot of small 
businesses on the island, they are third contractors, 
subcontractors.
    But with that being said, those are jobs. Those are 
hundreds and hundreds of jobs that would not have been there if 
they had not been exporting. And the Export Bank helped them a 
lot. Same as all of you, when we were talking about the economy 
that we have been going through, and everybody has been doing 
it, it was the MDBs that covered those loans.
    The Export Bank did the same thing. So in my opinion, for 
the amount of money that we owe, hopefully we will pay and this 
Congress will okay that. Our returns, in my opinion, are 
extremely strong and a good reason why, because we are getting 
back, and it is certainly having an effect as far as jobs here 
in this country with large corporations, but very also small 
corporations.
    And people have to understand that. I know it is hard 
because we still have to do an awful lot for jobs here in this 
country. But to me, it is a good deal. When I see a return, as 
Mr. Leo has said and others have said on what the returns are 
coming back into this country, it is a good deal, especially if 
you look at what you are getting on some of your accounts right 
now as far as whether it is savings or money management. I know 
we all think that way, but it is a good deal as far as the 
government goes. So with that being said, I do want to ask one 
other question.
    As we came through, and as the MDBs have covered the loans 
that were given out to other countries that we are helping, 
what do you think? What do you see, I should say? Do you see 
the support shifting back to more traditional infrastructure 
and development projects?
    Because right now, the MDBs were helping the banks, helping 
the countries just kind of get through this with loans to do 
what they had to do to get through everything. With the global 
economy recovering, where do you see that these countries are 
going to be going to stabilize their own country a little bit 
better, and to do the infrastructure
    So large roads. Afghanistan, gosh, I called that the land 
of dirt the couple of times I have been there. But you give 
that country some roads. We know they have minerals. We know 
that they have products.
    They have a lot of water. They can grow. They can be part 
of that part of the country as far as supplying food. But if 
you do not have roadways or trains, if you do not have 
refrigeration at the end, it is not going to go anywhere. So 
where do you see the world, on the whole, going forward as we 
get out of this recession?
    And we will get out, by the way. I feel confident on that.
    Mr. Mosbacher. I might say on Afghanistan that the World 
Bank and the MDBs have been absolutely instrumental in helping 
finance infrastructure there beyond what the United States 
Government pays for. The MDBs have played an integral role 
there.
    Second, the Inter-American Development Bank has taken a 
very aggressive posture in trying to finance infrastructure 
additions throughout Latin America. This is a continent, 
actually, that relatively speaking is doing pretty well. There 
are obviously countries, just like there are in Africa, that 
are going backwards.
    But there is an awful lot of growth. Even beyond Brazil, 
look at Colombia. And so the MDBs financing of projects on 
infrastructure--roads, water sanitation, electricity plants--
are having a tremendous impact on improving the competitiveness 
of those countries.
    The same thing goes for Africa and Asia. So I think they 
are stepping up. I think they are, frankly, the only game in 
town once we went through the financial crisis of 2008. And as 
you said, as well--very important point, and Ben Leo made this 
case--when things started to fall apart they could have fallen 
even worse apart around the rest of the world.
    But for the staunching of the building, if you will, that 
many of these MDBs did. A role that was little-sung, little-
understood, but had a huge impact on how free the fall was that 
we were going through.
    Mrs. McCarthy of New York. Thank you.
    Chairman Miller of California. In fact, our next hearing 
will be on the MDBs' impact on national security.
    Mr. Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you. Just a few quick questions. What, in 
a nutshell, would each of you say to the question, what are the 
Chinese really up to? What are they up to in Africa?
    I just was so amazed with my trip there, and I want to come 
back to that. I tend to think they are up to more than what the 
surface is showing. And if you had any figures on how much the 
Chinese are spending on foreign aid, and how much they are 
spending in Africa, for example.
    And just to try to get a good little quick handle on how we 
sum up Africa, I mean China, right quick. I would like to 
just--yes, Mr. Harmon?
    Mr. Harmon. I will start, just briefly. The Chinese need to 
maintain a growth rate of probably north of 7 percent. They are 
at 9 percent now, but 8 or 9 percent in order to keep their own 
country stable. Because at a lower growth rate, they will have 
serious problems with their own people.
    In order to--
    Mr. Scott. But let me ask you about that, because that is 
where my mind was taking me. I figure there is something else. 
When you say a problem with their own people, are we talking 
about the rapid population growth of the Chinese?
    Mr. Harmon. If you have unemployment in China, you will 
have disruption. There is a history in China that you would 
have those problems. The Chinese are a very capable people. 
They know what they are doing. There is nothing that I have 
seen yet that puzzled me about what they are doing.
    They have to maintain a growth rate in order to maintain 
stability in their whole system. And that growth rate is much 
higher than most of us in the United States are used to. So 
when we talk about numbers like 8 and 9 percent, this an 
enormous growth rate for a country the size of China.
    In order to maintain that growth rate, they have to 
continue to be very active in exporting product. They also have 
to transition into more of a consumption society. But what they 
are up to in the developing world, in Africa specifically, is 
resources, natural resources.
    So short-term, or medium-term, they negotiated as they 
could in Zimbabwe for certain natural resource products. They 
have done the same over and over and over again. So it is 
natural resources. When you operate outside the rules of the 
OECD, it is enormously difficult competition for the rest of 
the world.
    China does not have to be worried about that. In fact, in 
this particular G20 panel that I am on, the Chinese are hoping 
that we are going to encourage more infrastructure in Africa, 
which would be good for the African people, good for commerce.
    But they intend, when the project preparation gets 
completed appropriately, they are going to go in and bid for 
that infrastructure project themselves. They will take control 
of that infrastructure, and they will build it. Some people in 
Africa think it is colonialization again--by the Chinese coming 
in and not taking much time, as the World Bank will tell you or 
the IFC will tell you, as they got through their process, and 
all the procurement obligations that we have at the World Bank, 
the IFC is at a disadvantage.
    Because the Chinese have moved in and said, ``We do not 
need to check any of that. We will do the following for you.'' 
And so, they take off with a project. Over and over again, you 
are seeing that. We are competing against a much larger entity.
    Now in real numbers, in the year 2000 the Chinese came to 
me, as chairman of the Ex-Im Bank and said, ``We would like to 
secund a few people to Ex-Im Bank so we can learn more about 
export credit agencies.'' I thought they were going to do two 
or three people. And it was a joke at the Bank because the 
number of full-time employees of the Ex-Im Bank is about 440.
    And they said, ``We would like to secund 40.'' I said, 
``Forty people? That is 10 percent of our whole staff. We could 
never do such a thing as that.'' But at that time, they were 
supporting, literally I think the number was something like $5 
billion of exports from China. And today we think they are 
doing something like $250 billion.
    Mr. Kolbe. Mr. Scott, could I just add very quickly to 
that? It not about political colonialism. It is about economic 
colonialism. They do have to have a very rapid growth rate. And 
it is about resources in Africa. Clearly, they are looking for 
resources.
    But in a country like Malawi, which does not have a lot of 
natural resources, it is something else. And it is about 
markets. So they take a very long-term view of this thing. They 
have a very long-term view, and it is about expanding their 
markets and being able to maintain that growth rate.
    And that is what they are doing in a very effective way.
    Mr. Scott. Thank you.
    Chairman Miller of California. I would like to thank each 
of you for your testimony. It was very, very informative. It 
helps us to undertake the goal we have sought after to complete 
this process. And you have given us a lot of very, very good 
information. I mean that from my heart. You did a great job.
    Thank you for your time, your expertise, and your talents. 
And Chairman Kolbe, it was very good to have you back with us 
today. Without objection, I would like submit for the record a 
letter in support of the MDBs signed by the following 
organizations: the Business Roundtable; the Coalition for 
Employment Through Exports; the Emergency Committee for 
American Trade; the National Foreign Trade Council; the U.S. 
Council for International Business; and the U.S. Chamber of 
Commerce.
    The letter states that: ``MDB loans and expertise help 
developing countries become reliable trading partners and open 
up their markets for U.S. goods. And over half of all U.S. 
exports now go to developing countries that have received 
assistance from the MDBs.''
    The Chair notes that some members may have additional 
questions for this panel which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to these 
witnesses and to place their responses in the record.
    This meeting is adjourned.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]


























                            A P P E N D I X



                             July 27, 2011

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
